January 16, 2003

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in the Long Island
         and Northern New Jersey Districts – New York Metro Area
         (Report Number LH-AR-03-002)

This report presents the results of our audit of sexual harassment prevention measures
in the Long Island and Northern New Jersey Districts, New York Metro Area (Project
Number 02YG010LH005). Our overall objective was to determine if the districts had
adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate liability.
This report is based on a self-initiated review, and is the second in a series of
ten reports we will be issuing regarding sexual harassment prevention measures
Postal Service-wide.

We found that the Long Island and Northern New Jersey Districts’ sexual harassment
policies and procedures were adequate, employees found responsible for sexual
harassment or inappropriate actions/comments were appropriately disciplined or
corrective action was taken, and managers/supervisors were considered for exclusion
from the Pay for Performance Program. In addition, although no Postal Service national
policy existed regarding the retention time for informal complaint files, both districts
retained files indefinitely and storage of files was adequate. We also found, all
complaints in the Long Island District were effectively addressed, however, some sexual
harassment complaints in the Northern New Jersey District were not.

The report includes two recommendations to help the Northern New Jersey District
improve its sexual harassment prevention program. Management agreed with both
recommendations and the actions taken or planned should correct the issues identified
in this report. Management’s comments and our evaluation of these comments are
included in this report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at 214-775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Thomas F. Rosati
    Eugene H. Rear
    Susan M. Duchek
Sexual Harassment Prevention Measures in the Long Island              LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


                                  TABLE OF CONTENTS

 Executive Summary                                                     i

 Part I

 Introduction                                                          1

     Background                                                        1
     Objective, Scope, and Methodology                                 1
     Prior Audit Coverage                                              1

 Part II

 Audit Results                                                         2

     Policies and Procedures Adequate                                  2

     Employees Appropriately Disciplined or Corrective Action Taken    3

     Managers/Supervisors Considered for Exclusion from Pay for        4
     Performance

    Some Complaints Not Effectively Addressed                          6
    Recommendations                                                    7
    Management’s Comments                                              7
    Evaluation of Management’s Comments                                8

     File Retention and Storage Adequate                              10

 Appendix A. Objective, Scope, and Methodology                        11

 Appendix B. Management’s Comments                                    13




                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island                            LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


                                  EXECUTIVE SUMMARY
 Introduction                  This report presents the results of our audit of sexual
                               harassment prevention measures in the Long Island and
                               Northern New Jersey Districts, located in the New York
                               Metro Area. This review was self-initiated to determine if
                               the districts had adequate policies and procedures in place
                               to prevent sexual harassment in the workplace, and to
                               effectively address sexual harassment complaints to
                               mitigate liability.

 Results in Brief              The audit revealed that the Long Island and Northern
                               New Jersey Districts’ sexual harassment policies and
                               procedures were adequate and that employees found
                               responsible for sexual harassment or inappropriate
                               actions/comments were appropriately disciplined or
                               corrective action was taken. We also found that
                               managers/supervisors responsible for sexual harassment or
                               inappropriate actions/comments were considered for
                               exclusion from the Pay for Performance Program. In
                               addition, although no Postal Service national policy existed
                               regarding the retention time for informal complaint files, both
                               districts were retaining files indefinitely and storage of files
                               was adequate. Finally, we found all sexual harassment
                               complaints in the Long Island District were effectively
                               addressed and some complaints in the Northern
                               New Jersey District were not.

 Summary of                    The report includes two recommendations to help the
 Recommendations               Northern New Jersey District improve its sexual harassment
                               prevention program. We recommended management
                               establish controls to ensure managers and supervisors
                               effectively address all sexual harassment complaints and
                               inappropriate actions/comments of a sexual nature and fully
                               document detailed evidence of the actions taken to address
                               complaints; and the Equal Employment Opportunity office
                               notifies district management of all complaints of sexual
                               harassment or inappropriate actions/comments of a sexual
                               nature.

 Summary of                    Management agreed with the finding that all six complaints
 Management’s                  were effectively addressed in the Long Island District.
 Comments                      Management also agreed with the recommendations and
                               stated that as of December 15, 2002, the number of
                               management investigation team members had been


                                                   i
                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island                         LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


                               increased and complainant contact protocols had been
                               changed. Additionally, management has instructed the
                               Equal Employment Opportunity office to notify the manager
                               of Human Resources of sexual harassment complaints,
                               where anonymity is not requested.

                               Management did not agree, however, with the finding that
                               complaints were not promptly addressed. They said the
                               Office of Inspector General standard that an investigation
                               should begin within 48-hours was not an appropriate
                               measurement because there was no Postal Service or other
                               policy that specified that timeframe. They acknowledged
                               there were delays; however, they stated most of the delays
                               were understandable.

                               Additionally, management did not agree with the finding that
                               two complaints were not investigated and inappropriately
                               handled under the rules applicable at the time.
                               Management’s comments, in their entirety, are included in
                               Appendix B of this report.

 Overall Evaluation of         Management’s implemented and planned actions are
 Management’s                  responsive to the recommendations and should resolve the
 Comments                      issues identified in the report.




                                                   ii
                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                              LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


                                              INTRODUCTION
    Background                       Sexual harassment is defined by law as unwelcome sexual
                                     advances, requests for sexual favors, and other verbal or
                                     physical conduct of a sexual nature that becomes a term or
                                     condition of employment. In fiscal years (FY) 2000 and
                                     2001, the Postal Service paid approximately $343,8001 for
                                     sexual harassment judgments and settlements in the
                                     New York Metro Area.

    Objective, Scope, and            Our overall objective was to determine if the districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix A.

    Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                     objective of this audit in these two districts.




1
    This amount represents six complaints. None of these complaints were within the scope of our review.



                                                          1
                                               Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                               LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


                                             AUDIT RESULTS
    Policies and        We found that the Long Island and Northern New Jersey
    Procedures Adequate Districts had adequate policies and procedures that should
                        enable district management to identify and prevent sexual
                        harassment or inappropriate actions/comments, and provide
                        management with guidance to respond effectively to
                        complaints, thus mitigating liability and costs.

                                   We also found the districts:

                                        •   Established as district policies, Postal Service
                                            Publication 552, Manager’s Guide to Understanding
                                            Sexual Harassment, and Publication 553, Employee’s
                                            Guide to Understanding Sexual Harassment.

                                        •   Established investigative teams at the district level to
                                            investigate all complaints.

                                        •   Used Voice of the Employee surveys2 to monitor the
                                            work environment and when necessary provided
                                            additional training to raise awareness.




2
  The Voice of the Employee survey was a data collection instrument that the Postal Service had established to help
improve workplace relationships and to ensure all employees were treated with fairness, felt safe in their workplace,
had opportunities to participate in improvements, and took pride in being Postal Service employees.



                                                          2
                                               Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                                LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area




    Employees                        We found that employees responsible for sexual harassment
    Appropriately                    or inappropriate actions/comments were appropriately
    Disciplined or                   disciplined, or corrective action was taken.
    Corrective Action
    Taken                            Equal Employment Opportunity Commission 1990 and
                                     1999 guidelines recommended agencies take immediate
                                     and appropriate corrective action, including discipline, when
                                     sexual harassment occurred. Postal Service policy stated
                                     employees engaged in sexual harassment would be subject
                                     to disciplinary action, up to and including removal. The
                                     policy also stated that disciplinary action might result even if
                                     the conduct was not sexual harassment as defined by the
                                     law, but was inappropriate and of a sexual nature.

                                     Our review of formal and informal3 complaints in the Long
                                     Island and Northern New Jersey Districts showed that:

                                         •    Of the six formal and informal sexual harassment
                                              complaints filed in the Long Island District, sexual
                                              harassment or inappropriate actions/comments were
                                              not substantiated in five, and substantiated in one.

                                              – In the one substantiated complaint, one employee
                                                was involved and was appropriately disciplined or
                                                corrective action was taken.

                                         •    Of the 34 formal and informal complaints filed in the
                                              Northern New Jersey District, sexual harassment or
                                              inappropriate actions/comments were not
                                              substantiated in 20, and substantiated in 12. For the
                                              remaining two complaints, management did not
                                              conduct an inquiry or investigation to determine
                                              whether sexual harassment or inappropriate
                                              actions/comments had occurred, and thus no
                                              discipline or corrective action was considered or
                                              taken.

                                              – In the 12 substantiated complaints, 10 employees4
                                                were involved and all were appropriately
                                                disciplined or corrective action was taken.


3
    The term “informal” complaint refers to those not filed using the Equal Employment Opportunity process.
4
    Two of the ten employees were involved in two complaints each.



                                                           3
                                                Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                         LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area




    Managers/                    We found that managers/supervisors found responsible for
    Supervisors                  sexual harassment or inappropriate actions/comments were
    Considered for               considered for exclusion from the Pay for Performance
    Exclusion from Pay           Program5 in the Long Island and Northern New Jersey
    for Performance              Districts.

                                 Equal Employment Opportunity Commission guidelines
                                 included a reduction in wages as an effective corrective
                                 measure to stop harassment and ensure it does not reoccur.
                                 Postal Service policy stated an employee whose conduct
                                 was clearly unacceptable may be excluded from the Pay for
                                 Performance Program. The Postal Service described
                                 unacceptable behavior as “notoriously disgraceful or
                                 immoral conduct, or other conduct prejudicial to the Postal
                                 Service.”

                                 We found:

                                     •    One employee in the Long Island District was found
                                          responsible for sexual harassment or inappropriate
                                          actions/comments, and was not eligible for the Pay
                                          for Performance Program.

                                     •    Ten employees in the Northern New Jersey District
                                          were found responsible for sexual harassment or
                                          inappropriate actions/comments. Three were
                                          managers/supervisors who were eligible for the Pay
                                          for Performance Program. One was excluded, and
                                          the remaining two were considered for exclusion.

                                          – One manager/supervisor received $1,472 in
                                            FY 2001. District officials stated the
                                            manager/supervisor was not excluded because he
                                            had a spotless record prior to the incident and
                                            management believed a letter of warning was
                                            sufficient.




5
  The Pay for Performance Program, formerly referred to as the Economic Value Added Program, was an incentive
award program for nonbargaining employees. The amount of money received by each employee was based on a
group achievement of performance targets and financial measurements.



                                                       4
                                            Restricted Information
Sexual Harassment Prevention Measures in the Long Island                       LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area



                                      – One manager/supervisor received $3,711 in
                                        FY 2000, and was demoted from an Executive
                                        and Administrative Schedule to a craft employee.
                                        District management stated that payment of pay
                                        for performance was part of the settlement with
                                        him.




                                                   5
                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                              LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area




 Some Complaints                   Our audit disclosed that all six complaints in the Long Island
 Not Effectively                   District were effectively addressed. However, 8 of the
 Addressed                         34 complaints in the Northern New Jersey District were not.
                                   Equal Employment Opportunity Commission guidelines
                                   defined an “effective” investigation as a prompt, thorough,
                                   and impartial review with documented evidence. Postal
                                   Service policy required managers to conduct sexual
                                   harassment inquiries promptly and investigate all
                                   complaints, and document “serious” complaints with detailed
                                   evidence.6

                                   We found that:

                                       •    Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                       •    Of the 34 informal and formal complaints filed in the
                                            Northern New Jersey District, 26 were effectively
                                            addressed and 8 were not.

                                            – Of the eight not effectively addressed, six were
                                              not prompt and two were not investigated.

                                            – District management provided several reasons
                                              why complaints were not effectively addressed.
                                              For example, they said for the two complaints that
                                              were not investigated, the complaints were filed
                                              directly with the Equal Employment Opportunity
                                              office and that office did not notify district
                                              management of the complaints. This precluded
                                              them from conducting their own investigation.

                                   Complaints not effectively addressed could result in liability
                                   because the Postal Service cannot demonstrate it exercised
                                   reasonable care to prevent and promptly correct harassing
                                   behavior. We believe the lack of a Postal Service policy
                                   requiring documentation of all complaints and the



6
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.



                                                         6
                                              Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                               LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area



                                   lack of communication between the Equal Employment
                                   Opportunity office and district management may have been
                                   factors. We will address these issues in a separate report.7

    Recommendation                 We recommend the vice president, New York Metro Area
                                   Operations, instruct the Northern New Jersey District
                                   manager to establish controls to ensure:

                                         1. Managers and supervisors effectively address all
                                            sexual harassment complaints and inappropriate
                                            actions/comments of a sexual nature and fully
                                            document detailed evidence of the actions taken to
                                            address complaints.

    Management’s                   Management agreed with the finding that all six complaints
    Comments                       were effectively addressed in the Long Island District.
                                   Management also agreed with the recommendation and
                                   stated that as of December 15, 2002, the number of
                                   management investigation team members had been
                                   increased and complainant contact protocols had been
                                   changed. They said the protocol changes included an
                                   emphasis on documenting contact attempts and making
                                   telephone calls to their home, offering an opportunity for an
                                   immediate interview. They said they hope this will address
                                   the difficulties they had experienced in following up with
                                   complainants. Management also said the New York Metro
                                   Area office would issue a policy letter covering this protocol,
                                   by January 6, 2003, and would provide the Office of
                                   Inspector General (OIG) a copy.

                                   Management did not agree, however, with the finding that
                                   six complaints were not promptly addressed. They said the
                                   OIG standard that an investigation should begin within
                                   48-hours was not an appropriate measurement because
                                   there was no Postal Service or other policy that specified
                                   that timeframe. They acknowledged there were delays in
                                   addressing the complaints; however, they stated most of the
                                   delays were understandable given the difficulty in contacting
                                   the complainants, and the time needed in one case for the
                                   local postmaster to investigate the involvement of an
                                   external customer. They also said in two cases the

7
 We will issue a capping report on the audit results for the nine areas we visited, including the New York Metro Area,
where recommendations regarding national policy will be made to the senior vice president, Human Resources.



                                                          7
                                               Restricted Information
Sexual Harassment Prevention Measures in the Long Island                        LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area



                              employees involved were working in separate locations or
                              were timely separated in accordance with policy.

 Evaluation of                Management’s implemented and planned actions are
 Management’s                 responsive to the recommendation and should resolve the
 Comments                     issues identified in the report.

                              We do not agree, however, with management’s statement
                              that the 48-hour standard of measurement for determining
                              promptness, was not appropriate. This standard was based
                              on Equal Employment Opportunity Commission and Postal
                              Service guidelines, the definitions of “prompt” and
                              “immediate” (used in guidelines and policy), and discussions
                              with Postal Service Headquarters officials. In addition, the
                              standard was discussed with, and agreed to, by
                              headquarters officials prior to audit work. One vice
                              president told us he expected his managers or supervisors
                              to respond to a complaint within 24 hours.

                              We also do not agree with management’s statement that the
                              delays in addressing the six complaints were
                              understandable. Neither management’s comments nor the
                              complaint files reviewed in June 2002, contained the
                              information necessary to ascertain promptness. Specifically,
                              there were no details regarding when (date and time) the
                              complaint was responded to; who responded; and when the
                              actions were taken, and by whom.

 Recommendation               We recommend the vice president, New York Metro Area
                              Operations, instruct the Northern New Jersey District
                              manager to establish controls to ensure:

                                   2. The Equal Employment Opportunity office notifies
                                      district management of all complaints of sexual
                                      harassment or inappropriate actions/comments of a
                                      sexual nature.

 Management’s                 Management agreed with our recommendation and stated
 Comments                     as of December 18, 2002, the Equal Employment
                              Opportunity office was instructed to notify the manager of
                              Human Resources of sexual harassment complaints, where
                              anonymity is not requested.




                                                   8
                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island                         LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area



                              Management did not agree, however, that two complaints
                              were not investigated and inappropriately handled under the
                              rules applicable at the time. They said the Equal
                              Employment Opportunity office never notified district
                              management of the complaints and the Equal Employment
                              Opportunity manager believed she had investigated both
                              complaints by taking the complainants’ request for pre-
                              complaint counseling. They also stated that both
                              complainants withdrew their complaints during the pre-
                              complaint process.

 Evaluation of                Management’s implemented and planned actions are
 Management’s                 responsive to the recommendation and should resolve the
 Comments                     issues identified in the report. We do not agree, however,
                              with management that the two complaints were investigated
                              and appropriately handled. Postal Service policy required
                              district management to conduct an investigation even when
                              a complaint has been filed with the Equal Employment
                              Opportunity office. Our report acknowledged the Equal
                              Employment Opportunity office did not notify district
                              management, thus precluding them from conducting their
                              own investigation. However, the lack of policy requiring the
                              district be notified does not change that the district should
                              have been notified. This was the basis for our
                              recommendation.




                                                   9
                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island                              LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area




    File Retention and        Our audit found there was no Postal Service policy
    Storage Adequate          regarding the retention time for informal complaint files.
                              However, both districts retained informal complaint files
                              indefinitely and storage of files was also adequate.

                              Equal Employment Opportunity Commission guidance
                              stated formal sexual harassment complaint files should be
                              retained for at least 4 years after resolution of the complaint.
                              Postal Service policy stated once an inquiry/investigation
                              was conducted, files should be forwarded for storage, to the
                              district Human Resources manager. According to a
                              headquarters senior Postal Service manager, the intent of
                              this policy was to centrally locate the files with the Human
                              Resources manager.

                              Retaining and storing informal complaint files in a central
                              location ensures file availability if needed to mitigate liability.
                              We will address the need for a national retention policy in a
                              separate report.8




8
    See footnote 7.



                                                  10
                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                              LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Long Island and Northern New Jersey Districts, in
the New York Metro Area, implemented adequate policies and procedures to prevent
sexual harassment9 in the workplace and to effectively address sexual harassment
complaints to mitigate liability. Our district selections were based on interviews with the
senior vice president, Human Resources; vice president, Diversity Development; and
vice president, New York Metro Area Operations. We also considered the number of
closed formal sexual harassment complaints in each of the seven New York Metro Area
districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures, and
other documents including Equal Employment Opportunity Commission guidelines;
Postal Service national policies; the New York Metro Area, and Long Island and
Northern New Jersey District policies for preventing sexual harassment in the
workplace. We also reviewed Postal Service national policy regarding the Pay for
Performance Program. In addition, we reviewed previously issued OIG reports related
to sexual harassment issues. Further, we interviewed Postal Service Headquarters,
New York Metro Area, and Long Island and Northern New Jersey District officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, New York Metro Area,
and Long Island and Northern New Jersey Districts’ policies and procedures to
determine if the recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained
in formal and informal complaint files that were filed and closed10 in FYs 2000 and
2001,11 for the two districts we selected. We recorded information related to
promptness, thoroughness, impartiality and the level of documentation. These fiscal
years were chosen because they were the most recent and complete fiscal years at the
time of our fieldwork. The number of formal and informal closed complaints was
obtained from the Postal Service Equal Employment Opportunity case file database and
district management, respectively. We then excluded those complaints where the
employees filed their complaints directly with the Equal Employment Opportunity office
and requested confidentiality. These were excluded because honoring the request for

9
  For the purpose of this report, we used the legal definition of sexual harassment as unwelcome sexual conduct that
is a term or a condition of employment (29 C.F.R. § 1604.11(a)). In addition, we included the Postal Service policy
regarding inappropriate actions/comments of a sexual nature when reviewing sexual harassment complaint files.
10
   Sexual harassment complaints may be considered closed for a number of reasons including: (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
11
   We used Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.



                                                        11
                                              Restricted Information
Sexual Harassment Prevention Measures in the Long Island                                           LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


confidentiality precluded the Equal Employment Opportunity office from notifying district
management that a complaint had been made. This in turn precluded management
from conducting an investigation. We then determined there were 40 closed complaint
files as follows:

                                                        Complaints               Total Complaints
                         District
                                                     Formal   Informal              Per District
          Long Island                                   3          3                     6
          Northern New Jersey                           9        25                     34
            Total                                      12        28                     40

We also determined if the retention and storage of informal files were adequate using
Postal Service national, area, and district policies as well as Equal Employment
Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual harassment
received appropriate discipline using Equal Employment Opportunity Commission
guidelines, Postal Service policies and procedures, and some elements of the Douglas
Factors.12 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through January 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




12
  The Douglas Factors were developed as a result of case law (Douglas v. Veterans’ Administration) where the Merit
Systems Protection Board ruled that management must document certain factors to be considered in making a
determination of appropriate disciplinary action.



                                                       12
                                             Restricted Information
Sexual Harassment Prevention Measures in the Long Island         LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area


                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                  13
                                        Restricted Information
Sexual Harassment Prevention Measures in the Long Island         LH-AR-03-002
 and Northern New Jersey Districts – New York Metro Area




                                                  14
                                        Restricted Information
